APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(December 3, 2019) . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court for the
Eastern District of Pennsylvania
(July 5, 2018). . . . . . . . . . . . . . . . . App. 5
Appendix C Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Third Circuit
(January 2, 2020) . . . . . . . . . . . . App. 52

App. 1

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2720
[Filed December 3, 2019]
_____________________________________________
RAO S. MANDALAPU, Medical Doctor,
)
Appellant
)
)
v.
)
)
TEMPLE UNIVERSITY HOSPITAL; DOCTOR )
JACK H. MYDLO; DOCTOR ROBERT GUY
)
UZZO; DOCTOR RICHARD E. GREENBURG; )
DOCTOR DAVID Y.T. CHEN; DOCTOR
)
ALEXANDER KUTIKOV; DOCTOR ROBERT )
S. CHARLES; DOCTOR STEVEN J.
)
HIRSHBERG; DOCTOR YAN F. SHIBUTANI )
____________________________________________ )
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(District Court Civil No. 2:15-cv-05977)
District Judge: Honorable John R. Padova
Submitted Under Third Circuit L.A.R. 34.1(a)
June 11, 2019

App. 2
BEFORE: JORDAN, BIBAS, and NYGAARD,
Circuit Judges
(Filed: December 3, 2019)
OPINION*
NYGAARD, Circuit Judge.
Appellant, Dr. Rao Mandalapu, filed an employment
discrimination action against Appellees, Temple
University Hospital (“Temple”), Dr. Jack H. Mydlo, and
several other doctors at Temple (the “Defendant
Doctors”), after Temple did not promote him and did
not renew his contract in the urology residency
program. The District Court granted a motion for
summary judgment in favor of Temple and the
Defendant Doctors. Mandalapu contends on appeal
that he showed pretext by challenging the employer’s
reasons for its action. We will affirm.
We need not labor on the facts and instead refer the
reader to the District Court’s able description of the
record in its opinion.
The District Court’s recitation of the law is correct.
To establish pretext, we have held that a plaintiff must
show “(1) that retaliatory animus played a role in the
employer’s decisionmaking process and (2) that it had
a determinative effect on the outcome of that process.”1
Also, to discredit the employer, it is not enough that

*

This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

1

Krouse v. Am. Sterilizer Co., 126 F.3d 494, 501 (3d Cir. 1997).

App. 3
the decision was merely wrong or mistaken. Rather,
Appellant must demonstrate “weaknesses,
implausibilities, inconsistencies, incoherencies, or
contradictions in the employer’s proffered legitimate
reasons,” such that a reasonable factfinder could find
them not credible.2 At summary judgment, the ultimate
question is whether the Appellant has raised either a
genuine dispute of material fact regarding the
employer’s “intent to retaliate vel non”3 or, as the
District Court aptly stated, enough discrepancies in the
employer’s stated reasons that the factfinder
reasonably could infer that retaliation was the “real
reason”4 for the adverse action.
The District Court ruled Appellees’ claim—that
Mandalapu lacked the qualifications and skills
necessary to adequately perform his duties—was a
legitimate and non-discriminatory reason for not
promoting him and not renewing his contract.
Mandalapu claims that Appellees’ remarks in his
evaluations about his poor communication skills
(allegedly indicating bias against doctors of Indian
descent), showing that Temple promoted Caucasian
doctors, and providing the number of surgeries
performed, among other evidence, shows pretext. But
none of the evidence he provided undermines the
2

Fuentes v. Perksie, 32 F.3d 759, 765 (3d Cir. 1994).

3

Moore v. City of Philadelphia, 461 F.3d 331, 342 (3d Cir.
2006)(internal citation omitted).

4

Mandalapu v. Temple University Hospital, Inc., Civ. A. No. 155977, 2018 WL 3328026, at *10 (E.D. Pa. July 5, 2018)(internal
citation omitted).

App. 4
credibility of their stated reason for the decision to not
renew his contract. The District Court correctly held
that Mandalapu did not come forward with enough
evidence for a reasonable juror to disbelieve that he
was terminated for substandard performance. We
conclude, for the same reason, that Mandalapu failed
to carry his evidentiary burden.
We will affirm the District Court’s order.

App. 5

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
CIVIL ACTION
NO. 15-5977
[Filed July 5, 2018]
___________________________
RAO MANDALAPU, M.D. )
)
v.
)
)
TEMPLE UNIVERSITY
)
HOSPITAL, INC., ET AL. )
__________________________ )
MEMORANDUM
Padova, J.

July 5, 2018

Plaintiff Rao Mandalapu, M.D. filed this
employment discrimination action against Defendant
Temple University Hospital (“TUH”), Dr. Jack H.
Mydlo, and several other doctors at TUH (the
“Defendant Doctors”), after he was terminated from
TUH’s urology residency program. Defendants have
filed a Motion for Summary Judgment. For the
following reasons, we grant Defendants’ Motion.

App. 6
I.

BACKGROUND

The facts in the summary judgment record are as
follows. Plaintiff Rao Mandalapu was born in India.
(Concise Statement of Stipulated Facts (“Stip. Facts”)
¶ 5.) Plaintiff was board certified in general surgery in
India in 1996. (Id. ¶ 25.) He moved to the United States
in 2002 and became a United States citizen in 2009.
(Id. ¶ 26.) Because his foreign medical training was not
recognized in the United States, Plaintiff had to
undergo a three-part medical license exam and
complete a residency in the United States in order to
practice medicine here. (Pl.’s Dep., Defs.’ Ex. 1, at 4445.) From 2003 to 2004, he pursued a residency in the
Department of Surgery, SUNY-Stony Brook Hospital.
(Stip. Facts ¶ 27.) While in that program, he decided to
pursue a specialty in urology. (Pl.’s Dep. at 47-48.)
To obtain board certification from the American
Board of Urology, a doctor must undergo five clinical
years of post-graduate medical training that includes
one year of general surgery training and four years in
a urology program approved by the American Council
for Graduate Medical Education (“ACGME”). (Defs.’ Ex.
33 at 1.) Plaintiff’s one year at Stony Brook satisfied
his first year of urology certification training, that is,
his “PGY-1” in surgery. (See Pl.’s Dep. at 46-47, 55.) To
then burnish his credentials for application for a
urology program, from July 2004 to June 2006, Plaintiff
served as a men’s health fellow in the Department of
Urology at Brown University. (Pl.’s Dep. at 49-50; Stip.
Facts ¶ 28.)
Plaintiff subsequently applied and was accepted to
the urology residency program in the Department of

App. 7
Urology at Ohio State University, which he attended
from July 2007 to June 2009, satisfying his second and
third post-graduate residency years (“PGY-2” and
“PGY-3”). (Stip. Facts ¶ 29; Pl.’s Dep. at 55, 60.) In
January 22, 2008, the Chair of the Urology Department
at Ohio State, Dr. Robert Bahnson, authored a
memorandum in which he recounted that he had met
with Plaintiff to discuss concerns with Plaintiff’s
performance in the program. (Defs.’ Ex. 6; Defs.’ Ex. 7
at 2.) Among those concerns were that Plaintiff was
lagging behind the other two residents in the program,
seemed incapable of performing simple repetitive tasks
independently even when given explicit directions, and
had scored “quite low” on his in-service examinations.
(Defs.’ Ex. 6.) In May of 2008, Dr. Bahnson, wrote to
Plaintiff to inform him that the urology faculty had
collectively voted to place him on probation. (Defs.’ Ex.
7 at 1.) Dr. Bahnson stated in the letter that Plaintiff’s
acquisition of technical skills fell “far short of what one
would anticipate for a . . . trainee at [his] level,”
making the faculty “quite concerned about [his] future
promise to attain proficiency at more complex and
challenging technical surgical procedures.” (Id.) Dr.
Bahnson further stated that the faculty was concerned
that he had problems with his “cognitive fund of
knowledge in urology,” and that he had an inability to
use his medical knowledge and the facts before him to
formulate a treatment plan for a patient. (Id.) Finally,
Dr. Bahnson relayed that the faculty’s greatest concern
was that Plaintiff was not responsible and accountable.
(Id. at 1.) He warned Plaintiff that any further lapse in
professional responsibility would be grounds for
immediate expulsion from the program and that, if the
faculty did not see substantial progress in the

App. 8
deficiencies noted, Plaintiff would not be promoted to
the PGY-4 year. (Id.) In Plaintiff’s bi-annual review the
following month, Dr. Bahnson reiterated the concerns
in the May letter, and added that one of Plaintiff’s
problems was communication as he is both soft-spoken
and has difficulty with pronunciation of the English
language. (Defs.’ Ex. 8.) Dr. Bahnson stated that he
believed that some of the issues related to Plaintiff’s
performance “are owing to the fact that people and
patients cannot truly understand him when he speaks.”
(Id.)
On December 15, 2008, Plaintiff formally resigned
from the program at Ohio State, effective the end of his
academic year in 2009. (Stip. Facts ¶ 30; Defs.’ Ex. 9.)
Plaintiff explained his resignation by stating that he
felt like he was too “distracted” given that his wife was
living in New York and his son was living in California.
(Defs.’ Ex. 9.) At Plaintiff’s bi-annual review on
January 5, 2009, Dr. Bahnson noted that Plaintiff had
shown improvement in his in-service examination
scores, but that his clinical and operative skills were
still not “at a level that [Dr. Bahnson] would expect
from an individual at a PGY3 . . . level.” (Defs.’ Ex. 10.)
At the conclusion of Plaintiff’s PGY-3 year, in June of
2008, Dr. Bahnson recommended him for further
urologic training “with reservation.” (Defs.’ Ex. 11.) Dr.
Bahnson observed that Plaintiff’s interpersonal and
communication skills were “adequate,” and would be
“much better were it not for the fact that he has a very
soft voice and his accent sometimes makes it difficult
for people to understand him.” (Id.)

App. 9
In the Spring of 2011, Plaintiff accepted a position
in the urology residency program at Defendant TUH,
with a start date in July 2011. (Stip. Facts ¶ 31.) He
served as a resident transfer in the Temple Urology
residency program from July 2011 through July 2012,
working on his fourth post-graduate year (“PGY-4”).
(Id. ¶¶ 6, 32.) Defendant Dr. Mydlo was the director of
that program as well as the Chair of the Department of
Urology at TUH. (Id. ¶ 8.) In the program, Plaintiff
rotated among TUH; Abington Memorial Hospital,
which is affiliated with the Temple program; and Fox
Chase Cancer Center (“FCCC”), which is a
comprehensive care center within the Temple
University Health System. (Id. ¶¶ 3, 7, 33.) Defendants
Dr. Richard E. Greenberg (FCCC), Dr. David Y.T. Chen
(FCCC), Dr. Alexander Kutikov (FCCC), Dr. Robert
Guy Uzzo (FCCC), Dr. Robert Charles (Abington), Dr.
Steven Hirshberg (Abington), and Dr. Yan F. Shibutani
(Abington) were all teaching faculty in the urology
residency program. (Id. ¶¶ 10, 11, 13, 15, 17, 19, 21,
23.)
The terms of Plaintiff’s appointment to the program
were set forth in an agreement dated May 9, 2011, but
executed on July 21, 2011. (Defs.’ Ex. 14.) The
agreement specified that it covered the term of July 21,
2011 through July 20, 2012, and that Plaintiff’s
continuation in the program would be “based upon the
evaluations of [his] Program Director, preceptors and
the discharge of [his] responsibilities.” (Id.) It further
stated that his Program Director, who was Dr. Mydlo,
would inform him, no less than four months before the
end of his training year if his appointment would be

App. 10
terminated or if he would continue in the program at
the same PGY level. (Id.)
During the course of his PGY-4 year, Plaintiff
performed 638 surgical procedures, and was assigned
as the “surgeon” for all but thirteen of those
procedures. (Pl.’s Ex. Mydlo 40.) Approximately three
months into his training year, on October 28, 2011,
Ryan Fogg, a urology resident who was senior to
Plaintiff, prepared an email documenting a discussion
that she had with Plaintiff, which was prompted by
Plaintiff’s failure to realize that “a fresh post op
prostatectomy patient had new onset hematuria.”
(Defs.’ Ex. 15; Pl.’s Dep. at 198-99.) Fogg reported that
“when asked about [the mistake] directly, . . . [Plaintiff]
reported that the urine was clear.” (Defs.’ Ex. 15.) Fogg
documented that she reminded Plaintiff that “this was
the fourth occurrence of [its] kind and that [Fogg] was
concerned that there is a pattern of inattentiveness and
dishonesty or poor communication that is not
improving despite [her] repeated attempts to address
this issue w/ him.”1 (Id.)
All of the doctors who supervised Plaintiff
subsequently completed evaluations of Plaintiff’s work.
Dr. Mydlo’s review for the period of July 1, 2011 to
October 31, 2011 reflected that Plaintiff was deficient
in several categories, including overall clinical
competence, ability to make informed recommendations
about options, and using evidence based medicine to

1

At his deposition, Mandalapu denied that Fogg had any
discussion with him and asserted that the contents of the memo
that Fogg prepared were false. (Pl.’s Dep. at 202-03.)

App. 11
effectively manage patient care. (Defs.’ Ex. 17 at 1-2.)
He rated Plaintiff as “unsatisfactory” in “establish[ing]
rapport with patients and families thru listening,
narrative & nonverbal skills,” and also wrote that
Plaintiff “has a significant communication barrier that
makes it difficult to understand and comprehend
orders.” (Id.) Dr. Mydlo further noted that he had told
Plaintiff “a number of times that he needs to increase
his compulsiveness for patient care” and further wrote
that he would “carefully monitor [Plaintiff’s]
performance over the next few months.” (Id. at 2.)
For that same time period (July 1 to October 31,
2011), Dr. Hirshberg graded Plaintiff’s performance as
marginal in the vast majority of reviewed categories.
(Defs.’ Ex. 20 at 1-2.) He also noted on his evaluation
that Plaintiff “struggles with the English language
which is a barrier between him and hospital staff” and
that he needs to be more aware of the language barrier
and make a stronger effort to ensure that he is
understood.” (Id. at 3.) Dr. Shibutani primarily rated
Plaintiff’s performance during that time as
“approaching expected” and “expected,” noting that
Plaintiff had a “willingness to listen,” but had room for
improvement in “efficient[ly] managing problems and
service[,] . . . work[ing] quickly and independently[,] . . .
[and] tak[ing] initiative and lead as a senior resident.”
(Defs.’ Ex. 19 at 3-4.) While Dr. Mydlo reported that
Plaintiff was not on track to pass the ABIM
certification exam, Dr. Hirshberg and Dr. Shibutani
opined that Plaintiff was on track. (Defs.’ Ex. 17 at 1;
Defs.’ Ex. 19 at 3; Defs.’ Ex. 20 at 1.)

App. 12
Several doctors completed evaluations of Plaintiff
for the period of November 1, 2011 through February
29, 2012: Dr. Charles, Dr. Shibutani, Dr. Hirshberg,
Dr. Greenberg, Dr. Kutikov, and Dr. Chen. Dr. Charles
concluded that Plaintiff had completed his rotation
“satisfactorily,” reported that Plaintiff had mostly
performed as “expected” or “approaching expected,” and
was even “very good” at “demonstrate[ing] maturity,
motivation, [and] honesty” and “evaluat[ing] his own
performance and utiliz[ing] feedback to improve [his]
performance.” (Defs.’ Ex. 18 at 2.) He identified
Plaintiff’s principal strengths as being caring and
“[t]rying hard to improve,” and opined that Plaintiff
could improve by increasing his outside reading to
increase his fund of urologic knowledge. (Id. at 3.) Like
Dr. Charles, Dr. Shibutani concluded that Plaintiff had
completed his rotation “satisfactorily,” and mostly
rated Plaintiff’s performance as “approaching expected”
or as expected. (Defs.’ Ex. 19 at 1-2.) He rated Plaintiff
marginal in two categories: establishing rapport with
patients and families, and “[a]wareness and use of
practice guidelines . . . and effective utilization of
hospital resources to achieve appropriate patient care.”
(Id.) Dr. Shibutani identified Plaintiff’s strengths as
“remain[ing] even tempered and “well read about
certain areas,” and stated that Plaintiff could improve
with regard to “succinct directives to ancillary staff
seems to be a communication gap” and “more assertive
behavior and efficiency in completing tasks.” (Id. at 2.)
Dr. Hirshberg, as he did in his first evaluation,
again evaluated Plaintiff as marginal in many
categories, indicated that he was deficient both in
demonstrating maturity, motivation and honesty, and

App. 13
also in his awareness of and use of practice guidelines,
and he rated Plaintiff as “unsatisfactory” in
establishing rapport with patients and families. (Defs.’
Ex. 20 at 4-6.) While Dr. Hirshberg wrote that Plaintiff
had “a reasonable knowledge of basic urologic tenets,”
he also wrote that he was concerned about Plaintiff’s
honesty and that he feared that Plaintiff used his
problems with the English language as “cover for his
clinical inadequacies.” (Id. at 6.) Dr. Greenberg
primarily rated Plaintiff’s performance during this time
period as marginal or “approaching expected” and,
overall, reported that Plaintiff’s rotation was completed
“marginally.” (Defs.’ Ex. 21 at 1-2.)
Dr. Kutikov rated Plaintiff as marginal in five
categories, approaching expected in one category,
expected in five categories, and very good in maturity,
motivation and honesty. (Defs.’ Ex. 22.) He wrote:
Rao requires much improvement in his clinical
judgment, communication skills, and attention
to detail. He has trouble “rolling with the
punches” on a busy clinical service and needs to
develop better judgement [sic] on when to act
independently and when to ask for help. Many
dropped balls happen because communication
skills are sub-par. In truth, I still feel
uncomfor[t]able when Rao takes care of my
patients independently. He has improved, but
still has a “ways to go.”
(Id. at 3.) Dr. Chen commented that Plaintiff “appears
to be interested in completing his responsibilities well,
but his performance generally does not match his level
of interest” and “he commonly falls short of meeting

App. 14
normal clinical responsibilities.” (Defs.’ Ex. 24 at 2.) Dr.
Chen further noted that Plaintiff exhibited:
a concerning lack of general clinical
management knowledge, such as: 1) unclear
ability to perform an evaluation for a postoperative fever; 2) needs better sense of surgery
– movements are too large, exerts too much force
during delicate aspects of a procedure[;] 3) does
not demonstrate a satisfactory understanding of
surgical instruments or steps, in even
rudimentary procedures (ie, how to assemble a
cystocope v. resectoscope), far below expected for
his level of training.
(Id.) Dr. Chen rated Plaintiff as “unsatisfactory” or
“deficient” in seven different categories. (Id. at 1-2.)
Dr. Greenberg concluded for the evaluation period
of March 1, 2012 through June 30, 2012, that Plaintiff’s
rotation performance was “deficient,” evaluating him
either “unsatisfactory,” “deficient” or marginal in all of
the specific categories. (Defs.’ Ex. 21 at 3-4.) He also
noted that Plaintiff needed improvement in
“interpersonal communications with hospital staff[,]
Surgical ability[, and] Clinical Judgement [sic].” (Id. at
4.) Dr. Chen concluded for that same time period that
Plaintiff “follows explicitly stated order/directions
satisfactorily” but shows “no initiative in increasing
responsibility/autonomy in the overall management of
patients.” (Defs.’ Ex. 24 at 5.) He further observed that
Plaintiff was “[i]nadequate in taking criticism/
comments/recommendations and changing his behavior
or response for future situations,” and that he “repeats
errors and mistakes and fails to listen and implement

App. 15
recommended points needing improvement/correction.”
(Id.) Dr. Chen rated Plaintiff as “unsatisfactory” in
almost all of the specific categories. (Id. at 3-4.)
On April 10, 2012, TUH sent Plaintiff a contract for
the PGY-5 year. (Defs.’ Ex. 27.) Although Dr. Mydlo
had signed that contract, it was not signed by Susan
Coull, the Associate Hospital Director, Graduate
Medical Education, whose signature was also
anticipated. (Id.) Plaintiff signed the contract for the
PGY-5 year on April 30, 2012. (Id.)
On May 24, 2012, Plaintiff received and reviewed a
copy of his “Quarterly Evaluation,” which was dated
April 16, 2012 and authored by Dr. Mydlo. (Defs.’ Ex.
26.) The evaluation was a summation of a faculty
meeting held on April 9, 2012. (Mydlo Dep., Defs.’ Ex.
5 and Pl.’s Ex. 2, at 146.) Dr. Mydlo states in the
evaluation that the faculty at TUH and Abington “feel[]
that although you have improved somewhat over the
year, there are still problems with communication,
patient management, and surgical ability.” (Defs.’ Ex.
26.) He further states that “[t]he faculty feels you try
very hard . . . , however they have not seen significant
improvement that makes them feel comfortable in
promoting you to the next level.” (Id.) In addition, Dr.
Mydlo states that Dr. Greenberg, in particular, “does
not feel you are competent enough to manage the
complicated patients at Fox Chase” and that other
faculty feel that he is “not on track to finish the
program successfully.”2 (Id.) Dr. Mydlo therefore

2

Dr. Greenberg testified at his deposition that he did not feel that
Plaintiff was competent enough to become a chief resident, which

App. 16
advised Plaintiff that he “must consider other options
to pursue for [his] future.” (Id.)
On June 6, 2012, Dr. Mydlo sent a memorandum to
Plaintiff, reiterating many of the points in the April 16
memo, and stating that Plaintiff’s performance for the
PG-4 year was unsatisfactory and that, as a result, he
was “not being promoted and [his] contract [was] not
being renewed.” (Defs.’ Ex. 28 at 2.) Dr. Mydlo testified
that he had considered the information that he
obtained from the faculty members, but that the
ultimate decision not to promote Plaintiff was his own.
(Mydlo Dep. at 54-55; see also Greenberg Dep., Defs.’
Ex. 2, at 43-44.) In order to provide Plaintiff with four
months’ notice from the end of his contract period, Dr.
Mydlo stated that the termination would be effective
November 19, 2012. (Defs.’ Ex. 28 at 2.)
TUH subsequently gave Plaintiff the opportunity to
resign from the program. (See Defs.’ Ex. 29.) Dr. Mydlo
also offered to provide Plaintiff with a letter stating his
positive qualities, e.g., that he is hard working and
intelligent, and to speak to other programs to which
Plaintiff wished to apply. (Id.) On August 18, 2012,
Plaintiff sent Dr. Mydlo a resignation letter that was
dated May 20, 2012, and stated that he was resigning
“effective July 20, 2012 due to family circumstances.”
(Defs.’ Ex. 30.)

is the role of a PGY-5 resident. (Defs.’ Ex. 2 at 62, 81.) He
recounted that, towards the end of Plaintiff’s PGY-4 term, Plaintiff
made several mistakes that “led to significant injury to several
patients.” (Id. at 78-79.)

App. 17
In July of 2013, Dr. Mydlo completed a “Verification
of Graduate Medical Education” form concerning
Plaintiff for the Federation of State Medical Boards.
(Defs.’ Ex. 32.) On the form, he reported that Plaintiff
was “Training Level:1,” answered “yes” to the question
of whether Plaintiff had ever been placed on probation,
and wrote that Plaintiff “wasn’t performing at the
expectations of the residents or the faculty.” (Id.) At his
deposition, Dr. Mydlo could not recall whether Plaintiff
had been placed on formal probation; he only recalled
having advised Plaintiff that his evaluations were “not
going well” and that he was “not going to finish the
program.” (Mydlo Dep. at 216.)
On December 5, 2013, Dr. Mydlo provided Plaintiff
with a letter of recommendation in connection with
Plaintiff’s application for a position in the urology
program at Icahn School of Medicine at Mount Sinai.
(Pl.’s Ex. Mydlo 25.) That letter states that Plaintiff
“displayed good work ethic,” “demonstrated good
surgical technique in the operating room,” was
“personable and easy-going,” and scored very highly on
his AUA In-Service exam. (Id.) It further states that
Plaintiff showed “determination and perseverance to
become an urologist” and that Dr. Mydlo was sure that
Plaintiff would work his best to become an asset to the
Mt. Sinai program. (Id.) However, in fact, Plaintiff is no
longer able to obtain a certification in urology because
the American Board of Urology only allows a
certification applicant to participate in two residency
programs. (Mydlo Dep. at 247; American Bd. of Urology
Residency Requirements, Defs.’ Ex. 33, at 1 (“A
resident may only transfer once during the urology
portion of training . . . .”).)

App. 18
The First Amended Complaint asserts claims of race
discrimination and retaliation pursuant to 42 U.S.C.
§ 1981, based on Plaintiff’s termination (Count I), the
denial of PGY-4 credit (Count II), his performance
evaluations (Count III), hostile work environment
(Count IV), the wrongful termination of his PGY-5
contract (Count V), Dr. Mydlo’s failure to provide a
letter of recommendation (Count VI), and Dr. Mydlo’s
reporting of false and defamatory information to the
State Medical Board (Count VII). It also asserts state
law claims against TUH for breach of contract (Counts
VIII and IX), and against TUH and Dr. Mydlo for
defamation (Count X), as well as an alternative claim
against all Defendants under 41 U.S.C. § 1983 should
any Defendant be deemed a state actor (Count XI).3
II.

LEGAL STANDARD

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). An issue is
“genuine” when “the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby. Inc., 477 U.S. 242, 248
(1986). A factual dispute is “material” if it “might affect
the outcome of the suit under the governing law.” Id. In
ruling on a summary judgment motion, we consider
“the facts and draw all reasonable inferences in the

3

Neither party has asserted that Defendants are state actors, and
Plaintiff conceded at oral argument that he is no longer pursuing
his § 1983 claim. Accordingly, we do not address that claim any
further.

App. 19
light most favorable to . . . the party who oppose[s]
summary judgment.” Lamont v. New Jersey, 637 F.3d
177, 179 n.1 (3d Cir. 2011) (citing Scott v. Harris, 550
U.S. 372, 378 (2007)). If a reasonable fact finder could
find in the nonmovant’s favor, summary judgment may
not be granted. Congregation Kol Ami v. Abington
Twp., 309 F.3d 120, 130 (3d Cir. 2002) (citation
omitted).
“[A] party seeking summary judgment always bears
the initial responsibility of informing the district court
of the basis for its motion, and identifying those
portions of [the record] which it believes demonstrate
the absence of a genuine issue of material fact.” Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). Where the
nonmoving party bears the burden of proof on a
particular issue at trial, the movant’s initial Celotex
burden can be met simply by “pointing out to the
district court” that “there is an absence of evidence to
support the nonmoving party’s case.” Id. at 325. After
the moving party has met its initial burden, the
adverse party’s response “must support the assertion
[that a fact is genuinely disputed] by: (A) citing to
particular parts of materials in the record . . . ; or
(B) showing that the materials [that the moving party
has cited] do not establish the absence . . . of a genuine
dispute.” Fed. R. Civ. P. 56(c)(1). Summary judgment
is appropriate if the nonmoving party fails to respond
with a factual showing “sufficient to establish the
existence of an element essential to that party’s case,
and on which that party will bear the burden of proof
at trial.” Celotex, 477 U.S. at 322. “‘While the evidence
that the non-moving party presents may be either
direct or circumstantial, and need not be as great as a

App. 20
preponderance, the evidence must be more than a
scintilla.’” Galli v. New Jersey Meadowlands Comm’n,
490 F.3d 265, 270 (3d Cir. 2007) (quoting Hugh v.
Butler Cty. Family YMCA, 418 F.3d 265, 267 (3d Cir.
2005)).
III.

DISCUSSION
A. Race Discrimination (§ 1981)

In Counts I, II, and V, Plaintiff claims that
Defendants discriminated against him on the basis of
his race in violation of § 1981 insofar as they
terminated his enrollment in the TUH program, failed
to give him credit for his PHY-4 year, and failed to
promote him to his PGY-5 year.4 Defendants argue,
inter alia, that Plaintiff has not established a prima

4

In Counts III, IV, VI, and VII of the First Amended Complaint,
Plaintiff asserted that Defendants also discriminated against him
on the basis of his race in violation of § 1981 insofar as they issued
pretextual performance evaluations, subjected him to a hostile
work environment, failed to provide a letter of recommendation,
and reported false information to the Federation of State Medical
Boards. However, Plaintiff does not argue in his response to
Defendants’ summary judgment motion that these actions
constituted race discrimination. Rather, he argues only that the
performance evaluations and report to the Federation of State
Medical Boards amounted to retaliation in violation of § 1981,
addresses his hostile work environment claim as an independent
claim, and does not address the letter of recommendation claim at
all. Accordingly, we conclude that Plaintiff is not pursuing his
§ 1981 claim regarding the letter of recommendation (Count VI);
we address the claims concerning performance evaluations and the
Federation of State Medical Board (Counts III and VII) as claims
of retaliation only; and we address the hostile work environment
claim as a distinct cause of action under § 1981.

App. 21
facie case of discrimination with respect to these
claims.
Section 1981, by its terms, prohibits discrimination
in the making and enforcement of contracts. See 42
U.S.C. § 1981. Specifically, it provides, in pertinent
part, as follows:
All persons within the jurisdiction of the United
States shall have the same right in every State
and Territory to make and enforce contracts, to
sue, be parties, give evidence, and to the full and
equal benefit of all laws and proceedings for the
security of persons and property as is enjoyed by
white citizens, and shall be subject to like
punishment, pains, penalties, taxes, licenses,
and exactions of every kind and to no other.
Id. § 1981(a). “Although § 1981 does not itself use the
word ‘race,’ the [Supreme] Court has construed the
section to forbid all ‘racial’ discrimination in the
making of private as well as public contracts.” St.
Francis Coll. v. Al–Khazraji, 481 U.S. 604, 609 (1987)
(citing Runyon v. McCrary, 427 U.S. 160, 168 (1976)).
We analyze race discrimination claims brought
pursuant to Section 1981 under the same standard
under which we analyze such discrimination claims
under Title VII. Carvalho-Grevious v. Delaware State
Univ., 851 F.3d 249, 256-57 (3d Cir. 2017) (“The
substantive elements of a [racial discrimination] claim
under § 1981 are generally identical to the elements of
an employment discrimination claim under Title VII.’”
(alteration in original) (quoting Brown v. J. Kaz, Inc.,
581 F.3d 175, 181-82 (3d Cir. 2009)).

App. 22
To bring a successful discrimination claim, a
plaintiff must prove that “an employer has ‘treated [a]
particular person less favorably than others because of’
a protected trait . . . [and] ‘that the defendant had a
discriminatory intent or motive’. . . .” Ricci v.
DeStefano, 557 U.S. 557, 577 (2009) (first alteration in
original) (quoting Watson v. Fort Worth Bank & Trust,
487 U.S. 977, 985-86 (1988)). In the absence of direct
evidence of discriminatory intent, none of which is
available in this case,5 § 1981 discrimination claims are
analyzed under the burden-shifting framework
established by McDonnell Douglas Corp. v. Green, 411
U.S. 792 (1973). See Kant v. Seton Hall Univ., 289 F.
App’x. 564, 566 (3d Cir. 2008).
“Under McDonnell Douglas, the plaintiff bears the
initial burden of demonstrating a prima facie case of
unlawful discrimination . . . .” Dellapenna v.
Tredyffrin/Easttown Sch. Dist., 449 F. App’x 209, 213
(3d Cir. 2011) (citing McDonnell Douglas, 411 U.S. at
802). In order to demonstrate a prima facie case of
discrimination, Plaintiff must establish that:
(1) [he] is a member of a protected class; (2) [he]
was qualified for the position [he] sought to . . .
retain; (3) [he] suffered an adverse employment
action; and (4) the action occurred under

5

Plaintiff contends that the references to his accent in his
performance evaluations constitute direct evidence of
discrimination. However, as discussed below, we conclude that
such evidence does not even give rise to an inference of
discrimination. Accordingly, we necessarily also conclude that it
does not constitute direct evidence of discrimination.

App. 23
circumstances that could give rise to an
inference of intentional discrimination.
Makky v. Chertoff, 541 F.3d 205, 214 (3d Cir. 2008)
(citations omitted).
In asking that we grant summary judgment in their
favor on Plaintiff’s race discrimination claims in
Counts I, II, and V, Defendants do not dispute that
Plaintiff, as an Indian male, is a member of a protected
class or that he suffered adverse employment actions
insofar as he was denied PGY-4 credit and not
promoted to PGY-5. They argue, however, that the
evidence in the record does not – and cannot – support
conclusions that (1) he was qualified to receive credit
for his PGY-4 year, be promoted to PGY-5, and
continue in the TUH program, or (2) his lack of success
in, and failure to be promoted within, the program
occurred under circumstances that give rise to an
inference of intentional discrimination.
Plaintiff argues that there are genuine issues of
material fact both as to whether he was qualified to
continue in the program and as to whether Defendants’
actions occurred under circumstances giving rise to an
inference of discrimination. In arguing that there is
evidence to support a reasonable conclusion that he
was qualified to continue in the TUH program, Plaintiff
points to evidence that (1) Dr. Mydlo hired him at the
outset, thereby plainly concluding at the time that he
met the program’s requirements (see Defs.’ Exs. 12, 14;
(2) Defendants permitted him to perform 638 surgeries
during the course of his PGY-4 year, which was 100
more than the other PGY-4 resident in the program
(see Pl.’s Ex. Mydlo 40); (3) TUH prepared and

App. 24
forwarded to Plaintiff a contract to advance him to his
PGY-5 year (Defs.’ Ex. 27); (4) not all of his
performance reviews concluded that his performance
was “unsatisfactory” or “deficient,” but rather many
deemed his skills to be “marginal,” “approaching
expectations,” or even “expected” (see, e.g., Defs.’ Ex. 18
at 2; Defs.’ Ex. 19 at 1-4; Defs.’ Ex. 20 at 1-2, 4-6; Defs.’
Ex. 21 at 1-2), and (5) Dr. Mydlo wrote him a largely
positive letter of recommendation in December of 2013
(Pl.’s Mydlo Ex. 25.)
He further asserts that he has put forth evidence to
support a reasonable conclusion that Defendants’
failure to give him PGY-4 credit year and promote him
occurred under circumstances that give rise to an
inference of intentional racial discrimination. In that
regard, he relies on evidence that (1) more than one of
his performance evaluations referenced his accent or
difficulty with the English language (see, e.g., Defs.’
Ex. 20 at 3, 6); (2) Dr. Mydlo admitted that one of the
reasons that Plaintiff was not promoted was that he
did not “communicat[e] effectively with the residents
and the faculty about patient care” and added that
Plaintiff “would blame other nurses or the other
residents that did not understand him” on account of
his accent (Mydlo Dep. at 243); (3) of four other
individuals who did not complete TUH’s urology
residency program, two were Indian (id. at 151-53,
155); (4) Defendants promoted the Caucasian PGY-4
fellow to his PGY-5 year in spite of that fellow scoring
lower than Plaintiff on an American Urological
Association in-service exam and, in fact, scoring so low
that TUH’s policy required him to be subjected to

App. 25
additional oversight until improvement was shown (id.
at 234-35; Pl.’s Ex. Mydlo 2 at 5).)
We conclude that the evidence on which Plaintiff
relies is simply insufficient to support a prima facie
case of discrimination. As an initial matter, the
evidence does not support a reasonable conclusion that
he was qualified to receive credit for his PGY-4 year, to
be promoted to his PGY-5 year, and to continue in the
program. Indeed, the mere fact that he was admitted
into the program does not support an inference that he
was qualified to advance within the program. At oral
argument, Plaintiff pointed to an email that Dr. Mydlo
sent to the American Board of Urology (“ABU”) in June
of 2011, in which he sought the ABU’s approval to
admit Plaintiff into its program at a mid-way point in
TUH’s typically 6-year program, given Plaintiff’s prior
enrollment at Ohio State. (See Defs.’ Ex. 12; see also
Defs.’ Statement of Add’l Facts ¶ 23.) In that email, Dr.
Mydlo wrote that Plaintiff “has not only clearly
satisfied my program’s pre-urology requirements but
also those of the ACGME for graduation.” (Id.) Plaintiff
urges us to conclude based on this language that Dr.
Mydlo himself declared in June of 2011, before Plaintiff
had even been admitted to TUH’s program, that
Plaintiff was qualified to graduate from the TUH
program. This, however, is an unreasonable reading of
Dr. Mydlo’s email, which plainly conveyed only that Dr.
Mydlo believed at the time that Plaintiff was qualified
to “graduate” from his prior training levels and to enter
TUH’s program at the stated mid-way point.
Accordingly, we do not find this letter to carry any
probative value as to Plaintiff’s ultimate qualifications

App. 26
to receive credit for his PGY-4 year or to be promoted
to his PGY-5 year in the TUH program.
We also conclude that the simple fact that Plaintiff
performed numerous surgeries at TUH – and more
than his Caucasian counterpart – does not support a
conclusion that he performed those surgeries well or
that, during those surgeries, he exhibited the skills
that TUH considered necessary for promotion to the
PGY-5 year, such that he was qualified for a promotion.
Likewise, TUH’s presentation of a contract for his
PGY-5 year does not support a conclusion that Plaintiff
was qualified for a promotion where the contract was
not fully executed. (Defs.’ Ex. 25.) The record shows
that the contract was prepared, for administrative
reasons, before year-end evaluations were completed.
(Ex. 5 to Defs.’ Reply Br. at 35-36.) In addition, Dr.
Mydlo testified that he signed the contract without
reading it and that his signature was not an indication
that he believed that Plaintiff should be promoted.
(Defs.’ Ex. 27; Mydlo Dep., at 139-40 (testifying that
Dr. Mydlo was given a stack of renewal letters that he
signed without looking at the detail).) In addition, the
fact that Plaintiff did not receive universal
performance reviews of “unsatisfactory” or “deficient”
does not support a conclusion that he was qualified for
a promotion, when, irrespective of his other ratings, he
received numerous “unsatisfactory” and “deficient”
ratings and no doctor rated him above “approaching
expectations” on clinical competence.6 (See, e.g., Defs.’
6

Plaintiff also argues that we should discount his evaluations
because they were not submitted in a timely fashion but, rather,
were almost all submitted in May of 2012, after Dr. Mydlo had

App. 27
Ex. 17 at 1-2; Defs.’ Ex. 20 at 4-6; Defs.’ Ex. 21 at 3-4;
Defs.’ Ex. 24 at 1-4.) Finally, Dr. Mydlo’s December 5,
2013 letter of recommendation to Mt. Sinai, while
largely positive, cannot reasonably be read to support
a conclusion that Plaintiff was qualified for a
promotion sixteen months before, when he was advised
that he would not be promoted to PGY-5 because of a
variety of performance deficiencies. (See Pl.’s Mydlo Ex.
25.)
In sum, Plaintiff has simply pointed to no evidence
from which a reasonable jury could conclude that he
was qualified to be promoted to PGY-5 and continue in
the TUH program. Accordingly, he has failed to satisfy
that essential element of his prima facie case.
We also conclude that Plaintiff has failed to identify
evidence of circumstances surrounding his failure to be
promoted within the TUH program that gives rise to a
reasonable inference that intentional discrimination
was the reason for his termination. The primary
evidence on which Plaintiff relies in asserting that he
was the victim of racial animus is the evidence that
Defendants considered his Indian accent and difficulty
with the English language in evaluating him. (See
Defs.’ Ex. 20 at 3 (stating that Plaintiff “struggles with
the English language which is a barrier between him
and hospital staff” and that he “[n]eeds to be more
already made his decision not to promote Plaintiff. (Mydlo Dep. at
245 (stating that Dr. Mydlo made decision to terminate Plaintiff in
April or May).) He has proferred no evidence, however, that the
evaluations do not accurately reflect the opinion of the doctors who
submitted them. Accordingly, we will not discount them in spite of
the doctors’ delay in submitting them.

App. 28
aware of the language barrier and make a stronger
effort to ensure that he is understood.”); Defs.’ Ex. 20 at
6 (stating that Plaintiff has “problems with the English
language” and expressing fear that Plaintiff uses those
problem as “cover for his clinical inadequacies”); see
also Defs.’ Ex. 17 at 1-2 (stating that Plaintiff “has a
significant communication barrier that makes it
difficult to understand and comprehend orders”); Defs.’
Ex. 19 at 2 (noting that “succinct directives to ancillary
staff seems to be a communication gap”); Defs.’ Ex. 22
at 3 (observing that Plaintiff’s “communication skills
are sub-par”).) There can be no question, however, that
a medical professional’s ability to communicate
effectively with both patients and colleagues is an
important attribute, as is evidenced by TUH’s resident
evaluation form, which includes questions about
“interpersonal and communication skills.” (E.g., Defs.’
Ex. 17 at 1-2); see also Le v. City of Wilmington, 736 F.
Supp. 2d 842, 855 (D. Del. 2010) (“‘[A]n employee’s
heavy accent or difficulty with spoken English can be
a legitimate basis for adverse employment where
effective communication skills are reasonably related
to job performance’” (quoting Yili Tseng v. Florida A &
M Univ., 380 F. App’x 908, 909 (11th Cir. 2010));
Fragante v. City & Cty. of Honolulu, 888 F.2d 591, 59697 (9th Cir. 1989) (“An adverse employment decision
may be predicated upon an individual’s accent when
. . . it interferes materially with job performance. There
is nothing improper about an employer making an
honest assessment of the oral communications skills of
a candidate for a job when such skills are reasonably
related to job performance.” (citations omitted)).
Accordingly, we conclude that the references in
Plaintiff’s reviews to difficulties that he had

App. 29
communicating on account of his accent and/or his lack
of full command of the English language simply cannot
be attributed to racial bias, at least in the absence of
any other evidence of racially discriminatory intent.
We also conclude that no reasonable jury could draw
an inference that Defendants had a discriminatory
intent based on the other evidence upon which Plaintiff
relies. First, while Plaintiff argues that an inference
can be drawn from the fact that two other Indian
residents did not complete the TUH program, the
undisputed record evidence reflects that only one of the
Indian residents was terminated from the program due
to subpar clinical competence, while the other
voluntarily withdrew from the program to pursue
another specialty. (Mydlo Dep. at 152-53, 230.)
Moreover, two Caucasian residents were also
terminated from the program due to subpar clinical
competence. (Id. at 153, 155.) Consequently, we
conclude that the record reflects no discernible pattern
of targeting Indian residents for termination from the
program. Finally, we find that no reasonable inference
of discriminatory conduct can be drawn from the fact
that Plaintiff’s Caucasian counterpart was permitted to
continue in the program in spite of poor scores on the
board exam, as the undisputed evidence shows that
board exam scores are just one component of a
resident’s evaluation (id. at 234), and that Plaintiff’s
counterpart otherwise was found to be doing a “terrific
job,” was a “hard worker,” was “very conscientious,”
had “excellent interpersonal skills, and work[ed] well
with the ancillary staff” (id. at 236). See also id. at 23436 (explaining that TUH looks at the “whole picture”

App. 30
and that high scores do not necessarily make a good
doctor)).
For the foregoing reasons, we conclude that the
record simply does not support a reasonable conclusion
that Plaintiff was qualified to receive credit for his
PGY-4 year, to be promoted to his PGY-5 year, and to
continue in the TUH program, and that the record does
not support a reasonable inference of intentional
discrimination. We therefore conclude that Plaintiff
has not established a prima facie case of racial
discrimination in connection with his claims in Counts
I, II, and V, and we grant summary judgment in
Defendants’ favor on his race discrimination claims in
those Counts.
B. Retaliation (§ 1981)
In Counts III, V, and VII, Plaintiff asserts § 1981
retaliation claims, claiming that Defendants retaliated
against him after he complained that he had suffered
racial discrimination during his PGY-4 year at TUH by
issuing negative performance reviews, failing to honor
the PGY-5 contract, and making a false report to the
Federation of State Medical Boards. Defendants argue
that we should enter judgment in their favor on
Plaintiff’s retaliation claims because Plaintiff has not
established essential elements of his prima facie case
– namely, that he engaged in protected activity or that
the purported protected activity was causally connected
to any adverse employment action. They also contend
that, even if Plaintiff has satisfied his burden of
identifying genuine issues of material fact with respect
to his prima facie case, judgment should be entered in
their favor because he has failed to identify evidence

App. 31
that would support a reasonable conclusion that their
non-discriminatory reasons for their actions were
pretext.
To make out a prima facie case of retaliation, an
employee must “show: (1) protected employee activity;
(2) adverse action by the employer either after or
contemporaneous with the employee’s protected
activity; and (3) a causal connection between the
employee’s protected activity and the employer’s
adverse action.” Solomon v. Philadelphia Newspapers,
Inc., No. 08-2839, 2009 WL 215340, at *2 (3d Cir. Jan.
30, 2009) (citing Marra v. Philadelphia Hous. Auth.,
497 F.3d 286, 300 (3d Cir. 2007)). “If the employee
establishes a prima facie case, the burden of production
shifts to the employer to articulate a legitimate, nonretaliatory reason for the adverse action.” Id. (citing
Marra, 497 F.3d at 300). “If the employer meets this
burden, the burden of production shifts back to the
employee to show, by a preponderance, that ‘the
employer’s proffered explanation was false, and that
retaliation was the real reason for the adverse
employment action.’” Id. (quoting Marra, 497 F.3d at
300-01). “The employee must prove that ‘retaliatory
animus played a role in the employer’s decisionmaking
process and that it had a determinative effect on the
outcome of the process.’” Id. (quoting Shellenberger v.
Summit Bancorp, Inc., 318 F.3d 183, 187 (3d Cir.
2003)). Accordingly, “[t]he onus is on the plaintiff to
establish causation at two stages of the case: initially,
to demonstrate a causal connection as part of the prima
facie case, and at the final stage of the . . . framework
to satisfy [his] ultimate burden of persuasion by
proving pretext.” Carvalho-Grevious, 851 F.3d at 257.

App. 32
Plaintiff contends that he engaged in protected
activity insofar as he complained about racial
discrimination on a number of occasions between
December 2011 and May 2012. He contends that
Defendants retaliated against him based on these
complaints by (1) submitting, in May of 2012, poor
assessments for his performance from July 1, 2011
through February 29, 2012 (see, e.g. Defs’ Exs. 17-20);
and (2) refusing to honor his PGY-5 contract on June 6,
2012, the date on which they informed him that he
would not be permitted to continue in the program. He
further contends that TUH and Dr. Mydlo retaliated
against him by falsely reporting to the Federation of
State of Medical Boards that he had been on probation
while in the TUH program.
To establish that he engaged in protected activity,
Plaintiff testified at his deposition that he complained
to Dr. Mydlo about racial discrimination in December
2011, March 2012, April 2012, and May 2012.7 (Pl.’s
Dep. at 327-38). Plaintiff provides no specific
information about the complaints he made in March,

7

Plaintiff has also submitted evidence that he complained to Dr.
Uzzo regarding discrimination, but the record reflects that this
complaint was made in September of 2015, more than three years
after he left the TUH program and more than two years after Dr.
Mydlo’s allegedly false report to the Federation of State Medical
Boards in July of 2013. (See Ex. 6 to Defs’ Reply Mem.; Pl.’s Ex.
Mydlo 31; Pl.’s Ex. 3 at 45-46.) Accordingly, Plaintiff’s complaint
to Dr. Uzzo could not have given rise to the asserted retaliation.
See Solomon, 2009 WL 215340, at *2 (stating that to establish a
prima facie case of retaliation, the adverse action by the employer
must occur “either after or contemporaneous with the employee’s
protected activity” (citation omitted)).

App. 33
April, and May 2012. However, he testified that, in
December 2011, he advised Dr. Mydlo that Dr.
Hirshberg had commented on his accent in front of
other people and that he had told Dr. Hirshberg that
this was racial discrimination. (Id. at 165, 167.)
Defendants correctly point out that these allegations of
protected activity are vague and supported only by
Plaintiff’s self-serving deposition testimony.
Nevertheless, viewing the evidence in the light most
favorable to Plaintiff, we conclude that Plaintiff has
pointed to evidence in the record that, if credited,
would establish that he engaged in protected activity
by complaining to Drs. Mydlo and Hirshberg that he
was a victim of racially discriminatory conduct.
We also conclude, however, that that there is no
evidence in the record from which a reasonable jury
could find that there was a causal connection between
this protected activity and any adverse employment
actions that can be attributed to Defendant Doctors
Uzzo, Greenberg, Chen, Charles, Kutikov and
Shibutani. Most critically, Plaintiff cannot establish
that there is a causal connection between his protected
activity and either the negative performance reviews
authored by these doctors or the termination of his
PGY-5 contract, because he has presented no evidence
that any of these Defendant Doctors had any
knowledge of Plaintiff’s complaints to Dr. Mydlo or Dr.
Hirshberg. See Boykins v. SEPTA, No. 17-1980, 2018
WL 460652, at *6 (3d Cir. Jan. 17, 2018) (“A plaintiff
‘cannot establish that there was a causal connection
without some evidence that the individuals responsible
for the adverse action knew of the plaintiff’s protected
conduct at the time they acted.’” (quoting Daniels v.

App. 34
Sch. Dist. of Philadelphia, 776 F.3d 181, 196 (3d Cir.
2015) (additional citation omitted)). In addition,
Plaintiff has presented no evidence that these
Defendant Doctors or Dr. Hirshberg had any
involvement in the ultimate decision to terminate
Plaintiff’s PGY-5 contract. (See Defs.’ Ex. 2 at 64
(stating that it was ultimately Dr. Mydlo’s decision
alone whether a resident’s contract would be extended);
Defs.’ Ex. 5 at 55 same).) Accordingly, we grant
summary judgment in favor of Defendant Doctors
Uzzo, Greenberg, Chen, Charles, Kutikov, and
Shibutani on Plaintiff’s retaliation claims against them
in Counts III and V, and we grant judgment in favor of
Defendant Dr. Hirshberg on the retaliation claim in
Count V grounded on the decision to terminate
Plaintiff’s contract.
We also conclude that Plaintiff has failed to
establish a prima facie case of retaliation against Dr.
Mydlo and TUH based on Dr. Mydlo’s report to the
Federation of State Medical Boards because, as
Defendants argue, Plaintiff has not established that
the report constituted an “adverse employment action”
that can support a prima facie case of retaliation. To
constitute an “adverse employment action,” retaliatory
conduct must be such that it “‘well might have
dissuaded a reasonable worker from making or
supporting a charge of discrimination.’” Moore v. City
of Philadelphia, 461 F.3d 331, 341 (3d Cir. 2006)
(quoting Burlington N. & Santa Fe Ry. Co. v. White,
548 U.S. 53, 68 (2006)). In that regard, the conduct
must be “serious and tangible enough to alter an
employee’s compensation, terms, conditions, or
privileges of employment,” Cardenas v. Massey, 269

App. 35
F.3d 251, 263 (3d Cir. 2001) (quotation omitted), and
“must be more than de minimus or trivial,’” Brennan v.
Norton, 350 F.3d 399, 419 (3d Cir. 2003) (quoting
Suarez Corp. Indus. v. McGraw, 202 F.3d 676, 686 (4th
Cir. 2000)). Here, Plaintiff has not pointed to any
evidence that the misstatements in Dr. Mydlo’s report
to the Federation of State Medical Boards had any
negative consequences, much less consequences that
were more than de minimus. Indeed, while Plaintiff
argues that Dr. Mydlo’s report is “certainly” an adverse
employment action that “Section 1981 was designed to
prohibit,” he cites no legal authority, and develops no
facts, to support that position. (Pl.’s Mem. at 15.) We
therefore grant summary judgment in TUH’s and Dr.
Mydlo’s favor on Plaintiff’s retaliation claim in Count
VII based on Dr. Mydlo’s report to the Federation of
State Medical Boards.
Thus, the only remaining retaliation claims are the
claim against Dr. Hirshberg in Count III grounded on
Hirshberg’s negative performance reviews and the
claims against Dr. Mydlo and TUH in Counts III and V
grounded on Dr. Mydlo’s May 2012 negative
performance review and the termination of Plaintiff’s
PGY-5 contract. As noted above, to establish his prima
facie case with respect to these claims, Plaintiff must
establish that the adverse employment actions were
causally connected to his protected activity, which
means that he must “produce evidence ‘sufficient to
raise the inference that [his] protected activity was the
likely reason for the adverse [employment] action.’”
Carvalho-Grevious, 851 F.3d at 259 (second alteration
in original) (quoting Kachmar v. SunGard Data Sys.,
Inc., 109 F.3d 173, 177 (3d Cir. 1997)). Causation can

App. 36
be proven “by proffering evidence of an employer’s
inconsistent explanation for taking an adverse
employment action, a pattern of antagonism, or
temporal proximity ‘unusually suggestive of retaliatory
motive.’” Id. (internal citations omitted) (quoting
Shaner v. Synthes, 204 F.3d 494, 505 (3d Cir. 2000)).
“‘[T]he proferred evidence, looked at as a whole, may
[also] suffice to raise the inference.’” Id. (quoting
Kachmar, 109 F.3d at 177).
Plaintiff cannot establish the necessary causation
for his claim that Dr. Hirshberg retaliated against him
based on the existence of temporal proximity, because
he complained to Dr. Hirshberg in December of 2011
(Pl.’s Dep. at 165, 167), and Dr. Hirshberg’s negative
performance reviews were submitted at least five
months later, in May of 2012 (Defs.’ Ex. 20.). See
Carvalho-Grevious, 851 F.3d at 261 n.8 (observing that
an intervening temporal period of two months cannot
raise an inference of causation (citations omitted));
LeBoon v. Lancaster Jewish Cmty. Ctr. Ass’n, 503 F.3d
217, 233 (3d Cir. 2007) (“Although there is no bright
line rule as to what constitutes unduly suggestive
temporal proximity, a gap of three months between the
protected activity and the adverse action, without
more, cannot create an inference of causation and
defeat summary judgment.”) Moreover, Plaintiff points
to no evidence that Dr. Hirshberg offered inconsistent
explanations for his negative performance evaluations
of Plaintiff. He also points to no evidence (beyond the
May 2012 performance reviews on which he bases his
retaliation claim) that could provide support for a
conclusion (1) that Dr. Hirshberg engaged in a “pattern
of antagonism” towards him following his December

App. 37
2011 complaint about racial discrimination or (2) that
the “evidence as a whole” supports an inference of Dr.
Hirshberg’s retaliatory intent. We therefore conclude
that Plaintiff has failed to produce evidence from which
a reasonable factfinder could conclude that Plaintiff’s
December 2011 complaint of racial discrimination was
the “likely reason” for Dr. Hirshberg’s negative
performance reviews, Carvalho-Grevious, 851 F.3d at
259, and we grant summary judgment in Dr.
Hirshberg’s favor on that retaliation claim.
In contrast, there is more significant temporal
proximity between Plaintiff’s asserted complaints to
Dr. Mydlo about discriminatory conduct in April 2012
and May 2012, and (1) Dr. Mydlo’s negative
performance review (in May 2012) (Defs.’ Ex. 17), and
(2) Dr. Mydlo’s and TUH’s decision not to promote
Plaintiff to his PGY-5 training year (sometime between
April and June of 2012) (see Defs.’ Exs. 26, 28.). We
therefore conclude that, viewing the evidence in the
light most favorable to Plaintiff, Plaintiff has pointed
to evidence that creates a genuine issue of material fact
as to whether there is a causal connection between
Plaintiff’s protected activity and these asserted adverse
employment actions, such that he has satisfied his
prima facie case in that regard. See Schlegel v. Koteski,
307 F. App’x 657, 661 (3d Cir. 2009) (stating that “[a]
showing of ‘unusually suggestive’ temporal proximity
between the protected activity and the adverse action
can be sufficient” to establish the requisite causal link
for a retaliation claim) (quoting Doe v. C.A.R.S. Prot.
Plus, Inc., 527 F.3d 358, 369 (3d Cir. 2008)).

App. 38
We must therefore consider whether Defendants
have articulated a legitimate non-discriminatory
reason for their actions and whether Plaintiff has put
forth evidence that Defendants’ proffered explanation
was false and that the real reason for Defendants’
actions was retaliation. See Solomon, 2009 WL 215340,
at *2 (citing Marra, 497 F.3d at 300-01). Here, there is
plentiful evidence that both Dr. Mydlo’s May 2012
performance review and the decision not to promote
Plaintiff to PGY-5 were based on reports from multiple
faculty members that Plaintiff was providing
“substandard patient care, not paying attentions to
detail, blaming others for problems that were
happening.” (Mydlo Dep. at 63-66; Defs.’ Ex. 28 at 1
(setting forth reasons for decision not to promote
Plaintiff, including Plaintiff’s “low performance,”
“problems with communication, patient management
and surgical ability,” and inability to manage
complicated patients).) Accordingly, we find that
Defendants have met their burden of articulating a
non-discriminatory reason for their actions.
In response, Plaintiff has identified no evidence that
would support a reasonable conclusion that the
“proferred explanation was false and that retaliation
was the real reason for [Dr. Mydlo’s performance
review and the decision not to promote Plaintiff].”
Solomon, 2009 WL 215340, at *2 (quoting Marra, 497
F.3d at 300-01). Indeed, in arguing that he has
established pretext, Plaintiff relies on the same
evidence on which he relied in arguing that
Defendants’ failure to promote him occurred under
circumstances that could give rise to an inference of
intentional racial discrimination, asserting that he

App. 39
need not come forward with evidence of discrimination
beyond that which he presented in his prima facie case.
(See Pl.’s Mem. at 15-17 (addressing pretext)). We have
already considered this evidence and concluded that it
was insufficient to support a prima facie case of racial
discrimination as it did not give rise to a reasonable
inference that intentional discrimination was the
reason for Plaintiff’s failure to be promoted within the
TUH program. (See supra pp. 18-19.) It likewise does
not give rise to an inference that retaliation for
Plaintiff’s protected activity was the real reason for the
asserted adverse actions. Indeed, there is simply no
basis in the record on which a reasonable factfinder
could conclude that Plaintiff received a poor
performance review from Dr. Mydlo and was not
promoted to PGY-5, not because Plaintiff performed
poorly in his PGY-4 year as Defendants’ assert, but
because Dr. Mydlo and TUH harbored retaliatory
animus against Plaintiff on account of his informal
complaints of discrimination. In the absence of any
such evidence of pretext, we conclude that Plaintiff has
failed to sustain his burden on summary judgment of
identifying evidence that would support a claim of
retaliation grounded on Dr. Mydlo’s performance
review or the failure to promote Plaintiff to his PGY-5
year.
For all of the above reasons, we grant Defendants’
Motion for Summary Judgment as to Plaintiff’s
retaliation claims in m Counts III, V, and VII, and we
enter summary judgment in favor of Defendants’ on
those claims.

App. 40
C. Hostile Work Environment (§ 1981)
Plaintiff claims in Count IV of the First Amended
Complaint that Defendants subjected him to a hostile
work environment on account of his race in violation of
§ 1981. Defendants argue, inter alia, that the record
contains no facts that would support such a claim.
For purposes of a claim brought pursuant to § 1981,
“[a] hostile work environment exists when the
‘workplace is permeated with discriminatory
intimidation, ridicule, and insult, that is sufficiently
severe or pervasive to alter the conditions of the
victim’s employment and create an abusive working
environment.”’ Boyer v. Johnson Matthey, Inc., Civ A.
No. 02-8382, 2005 WL 35893, at *12 (E.D. Pa. Jan. 6,
2005) (quoting Nat’l R.R. Passenger Corp. v. Morgan,
536 U.S. 101, 115, 116 (2002)). To prevail on a hostile
work environment claim grounded on racial
harassment, “a plaintiff must show that ‘1) the
employee suffered intentional discrimination because
of his/her [race], 2) the discrimination was severe or
pervasive, 3) the discrimination detrimentally affected
the plaintiff, 4) the discrimination would detrimentally
affect a reasonable person in like circumstances, and
5) the existence of respondeat superior liability
[meaning the employer is responsible].’” Castleberry v.
STI Grp., 863 F.3d 259, 263 (3d Cir. 2017) (alterations
in original) (quoting Mandel v. M & Q Packaging Corp.,
706 F.3d 157, 167 (3d Cir. 2013). “Whether an
environment is hostile requires looking at the totality
of the circumstances, including: ‘the frequency of the
discriminatory conduct; its severity; whether it is
physically threatening or humiliating, or a mere

App. 41
offensive utterance; and whether it unreasonably
interferes with an employee’s work performance.’” Id.
at 264 (quoting Harris v. Forklift Sys., Inc., 510 U.S.
17, 23 (1993)). “[S]imple teasing, offhand comments,
and isolated incidents (unless extremely serious)” do
not alone give rise to a hostile work environment.
Faragher v. City of Boca Raton, 524 U.S. 775, 788
(1998) (quotation omitted).
Plaintiff argues that there is evidence in the record
that creates a genuine issue of material fact as to
whether he was subjected to a hostile work
environment. In support of this argument, he cites
exclusively to the evidence of workplace conditions that
Defendants’ acknowledged and referenced in their
Motion. (See Pl.’s Mem. at 17-18 (“[T]he evidence as
Defendants themselves present it[] conclusively shows
sufficient evidence to deny summary judgment on [the]
hostile work environment claim.”)). The referenced
evidence includes Plaintiff’s deposition testimony that
Dr. Hirshberg would make him “feel really bad”
because he would ask Plaintiff something, ask him to
repeat his answer, and then laugh. (Pl.’s Dep. at 162.)
It also includes Plaintiff’s testimony that it was “very
painful” to him when, in April 2012, Dr. Chen stated to
him during an operation: “Rao, it’s not that you don’t
know urology. It’s not that you cannot operate, but
urology career is not for you or someone like my racial
background. And . . . this is not only my opinion. This
is a collective opinion from the faculty.” (Id. at 174.) It
also includes Plaintiff’s testimony that Dr. Charles
repeatedly asked him when he started learning
English, how many languages he spoke, and whether
his education was in English. (Id. at 162-63.) He

App. 42
further testified that other clinical faculty were present
when Dr. Charles and Dr. Hirshberg made comments
and that he perceived them all to be “making jokes of
[him].” (Id. at 164.)
Such evidence, however, even viewed in the light
most favorable to Plaintiff, is simply insufficient to
support a reasonable conclusion that Plaintiff endured
a hostile work environment. Far from evidencing
“severe or pervasive” discrimination that created an
“abusive working environment,” this evidence, at most,
demonstrates that Plaintiff was subjected to “teasing,
offhand comments, and isolated incidents” that were
not extremely serious. Boyer, 2005 WL 35893, at *12
(quotation omitted); Faragher, 524 U.S. at 786, 788
(quotations omitted). Moreover, there is no evidence
that the referenced conduct was “physically
threatening or humiliating,” or that it unreasonably
interfered with Plaintiff’s work performance.
Castleberry, 863 F.3d at 264 (citation omitted). We
therefore conclude that Plaintiff has failed to point to
evidence that creates a genuine issue of material fact
as to the existence of a hostile work environment.
Consequently, we grant Defendant’s Motion for
Summary Judgment as to Count IV of the Complaint,
and enter judgment in Defendants’ favor on the hostile
work environment claim.
D. Defamation
In Count X of the First Amended Complaint,
Plaintiff asserts a claim of defamation against Dr.
Mydlo and TUH, grounded on Dr. Mydlo’s report to the
Federation of State Medical Boards, which, as noted
above, incorrectly reported that Plaintiff was a level

App. 43
one resident and had been on probation during his
participation in the TUH urology program. Defendants
argues both that this claim is barred by a release that
Plaintiff signed on August 24, 2012, and that Plaintiff
has failed to establish a defamation claim because he
has produced no evidence that he suffered harm as a
result of Defendant’s allegedly defamatory statements.
Under Pennsylvania law, a contractual release will
be enforced if:
(1) the contract [does] not contravene any policy
of law; (2) the contract [is] an agreement
between individuals relating to their private
affairs; (3) each party to the agreement [is] a
free bargaining agent, not one drawn into an
adhesion contract with no recourse but to reject
the whole transaction; and (4) the agreement . . .
express[es] the intent of the parties with the
utmost particularity.
Arce v. U-Pull-It Auto Parts, Inc., Civ. A. No. 06-5593,
2008 WL 375159, at *4 (E.D. Pa. Feb. 11, 2008) (citing
Schiele v. Simpson Safety Equip., Inc., Civ. A. No. 911872, 1992 WL 73588, at *3 (E.D. Pa. Apr. 7, 1992);
Employers Liab. Assurance Corp. v. Greenville Bus.
Men’s Ass’n, 224 A.2d 620, 622-23 (Pa. 1966)).
Although releases “are not favored by the law and must
be construed strictly against the party who seeks to
avoid liability, a court ‘must use common sense in
interpreting the agreement.’” Id. (quoting Nicholson v.
Mt. Airy Lodge, Inc., Civ. A. No. 97-1296, 1997 WL
805185, at *3 (E.D. Pa. 1997)).

App. 44
Here, the release that Plaintiff signed stated in
relevant part as follows:
I extend absolute immunity to, and release from
any and all liability, [TUH] and its affiliates,
their respective, employees, officers, directors,
agents, and any third parties for any actions,
recommendations, reports, statements,
communications, or disclosures, whether oral,
written or otherwise, involving me and/or
related to my admission, participation in, and
dismissal from the [TUH] residency program.
This includes, without limitation, matters,
inquiries, or letters of reference concerning my
professional qualifications, credential, medical
knowledge, clinical competence, character,
mental or emotional stability, physical condition,
ethics or behavior and any other matter that
might directly or indirectly have any effect on, or
relate[] to, my abilities, education, competence,
patient care, participation in another residency
program, [or] skills . . . .
(Defs.’ Ex. 31.) Plaintiff does not argue that the release
is unenforceable because it does not meet one of
Pennsylvania’s legal criteria for an enforceable release.
See Arce, 2008 WL 375159, at *4 (citations omitted).
Rather, he simply argues, without citation to any legal
authority or reference to pertinent language in the
release, that the release does not cover liability for the
disclosure of “false information.” (Pl.’s Mem. at 21.) We
reject this factual argument, however, as the release,
on its face, “extends absolute immunity” and releases
TUH and its employees for “any and all liability” for

App. 45
“any actions, . . . reports, communications, or
disclosures . . . involving [Plaintiff] and/or related to
[his] participation in . . . the [TUH] residency
program.” (Id. (emphasis added)). Using “‘common
sense,’” we can only conclude that the release is
unambiguous and in no way excludes liability for false
statements. Arce, 2008 WL 375159, at *4 (quoting
Nicholson, 1997 WL 805185, at *3). Accordingly, we
conclude that the release unambiguously bars
Plaintiff’s defamation claim arising out of Dr. Mydlo’s
report to the Federation of State Medical Boards.
In addition, even absent the release, we conclude
that Plaintiff has failed to adduce evidence to support
a defamation claim based on Dr. Mydlo’s report. To
establish defamation under Pennsylvania law, a
plaintiff must prove, inter alia, that he suffered
“[s]pecial harm resulting . . . from [the defamatory
statement’s] publication.” 42 Pa. Cons. Stat. Ann.
§ 8343(a)(6). “The term ‘special harm’ is defined as
‘actual damages which are economic or pecuniary
losses.’” Patel v. Patel, Civ. A. No. 14-2949, 2015 WL
6735958, at *5 (E.D. Pa. Nov. 4, 2015) (quoting Sprague
v. Am. Bar Ass’n, 276 F. Supp. 2d 365, 368-69 (E.D. Pa.
2003)). Here, Plaintiff has submitted no evidence to
establish that Dr. Mydlo’s report to the Federal of State
Medical Boards resulted in any harm, much less that
it caused him actual damages. Accordingly, Plaintiff’s
defamation claim fails for this reason as well.
We therefore grant Defendants’ Motion for
Summary Judgment, and grant judgment in
Defendants’ favor, as to the defamation claim in
Count X.

App. 46
E. Breach of Contract
In Counts VIII and IX of the First Amended
Complaint, Plaintiff asserts breach of contract claims
for breaches of his PGY-4 and PGY-5 contracts and
breach of an agreement to provide him with a letter of
recommendation. Defendants have moved for summary
judgment on both Counts, arguing that, based on the
evidence presented, no reasonable jury could return a
verdict in favor of Plaintiff on either claim. Plaintiff
contends in his Memorandum that he has put forth
sufficient evidence to support his claim that TUH and
Mydlo breached his PGY-4 contract, as set forth in
Plaintiff’s May 9, 2011 offer letter for his PGY-4 year,
insofar as they breached the provision of that contract
requiring the Program Director (Dr. Mydlo) to “inform
[Plaintiff] in writing no less than 4 months prior to
the end of [his] current training year, if [his]
appointment is terminated, or if [he] will continue in
the Program at the same PGY level.” (Defs.’ Ex. 14 at
1; Pl.’s Mem. at 22-23.) We therefore understand this to
be the only breach of contract claim that Plaintiff is
still pursuing, and we grant summary judgment in
Defendant’s favor on all other aspects of Plaintiff’s
breach of contract claim.8

8

Specifically, we grant judgment in Defendants’ favor on Plaintiff’s
other breach of contract claims, including that TUH and Dr. Mydlo
breached the PGY-4 and/or PGY-5 contracts by denying him credit
for the PGY-4 year and terminating the PGY-5 contract (included
in Count VIII), and that TUH and Dr. Mydlo breached an oral
agreement to provide Plaintiff with a positive letter of
recommendation (Count IX). (See Am. Compl. ¶¶ 133, 146.)

App. 47
In order to prevail on a breach of contract claim
under Pennsylvania law, a plaintiff must establish
“‘(1) the existence of a contract, (2) a breach of the duty
imposed by the contract and (3) damages resulting
from the breach.’” Sewer Auth. of the City of Scranton
v. Pa. Infrastructure Inv. Auth., 81 A.3d 1031, 1041-42
(Pa. Commw. Ct. 2013) (quoting Orbisonia-Rockhill
Joint Mun. Auth. v. Cromwell Twp., 978 A.2d 425, 428
(Pa. Commw. Ct. 2009)) Moreover, the plaintiff must
prove the resulting damages with “reasonable
certainty.” ATACS Corp. v. Trans World Commc’ns,
Inc., 155 F.3d 659, 669 (3d Cir. 1998) (citations
omitted)).
Here, Defendants do not dispute that the May 9,
2011 offer letter constitutes a binding contract.
Moreover, there is evidence that the first formal
written notice to Plaintiff that his appointment was
being terminated was on June 6, 2012, which was
approximately seven weeks before the July 20, 2012
end date of the contract. (Defs.’ Ex. 28; Defs.’ Ex. 14 at
1 (“The term of this Agreement shall be from 7/21/2011
through 7/20/2012 . . . .”).) Accordingly, Plaintiff has
produced evidence that TUH breached its contractual
obligation to “inform him in writing no less than 4
months prior to the end of [his] current training year,
if [his] appointment is terminated . . . .” (Defs.’ Ex. 14
at 1.) The record therefore includes evidence to support
the first two elements of Plaintiff’s breach of contract
claim.
Plaintiff has not, however, pointed to any evidence
that he was damaged by the asserted breach, much less
produced evidence that could prove his damages to a

App. 48
“reasonable certainty.” ATACS Corp., 155 F.3d at 669.
Indeed, in spite of the evidence that TUH provided
Plaintiff with late notice of the termination of his
appointment, the undisputed evidence demonstrates
that TUH offered Plaintiff the opportunity to continue
in the program for four months after it provided notice,
i.e., until November 19, 2012, which was four months
after the original contract termination date. (Defs.’ Ex.
28 at 2 (“To give you ample opportunity to secure
employment options, you are being provided with 4
months notice from the end of your current contract
period. Therefore, you will be terminated from the
program effective November 19, 2012.”).) Moreover, the
undisputed evidence also demonstrates that Plaintiff
instead resigned from the TUH program effective July
20, 2012. (See Defs.’ Ex. 30.) Under these
circumstances, the evidence in no way suggests that
Plaintiff suffered damages as the result of TUH’s late
notice.9 In the absence of any such evidence, we
conclude that Plaintiff has failed to point to any
evidence that would establish damages arising from
the asserted breach and, thus, that no reasonable jury

9

Plaintiff asserts in the First Amended Complaint that he
“suffered multiple damages” as a result of TUH’s breach,
“including but not limited to loss of income, loss of future income,
and the ability to become eligible for certification by the American
Board of Urology.” (Am. Compl. ¶ 140.) However, Plaintiff does not
point to any evidence that such losses were the result of TUH’s
delay in notifying him of his termination and does not even
articulate a theory as to how the delay could have caused such
damages. Accordingly, we conclude that there is no evidence in the
record that supports a reasonable conclusion that the losses
alleged in the Amended Complaint are attributable to the delayed
notice of termination.

App. 49
could find in Plaintiff’s favor on the breach of contract
claim based on the record before us. We therefore grant
Defendants’ Motion for Summary Judgment as to
Plaintiff’s breach of contract claim and grant judgment
in Defendants’ favor on Count VIII.
IV.

CONCLUSION

For the foregoing reasons, we grant Defendants’
Motions for Summary Judgment in its entirety and
enter judgment in favor of Defendants. An appropriate
Order follows.
BY THE COURT:
/s/ John R. Padova, J.
______________________
John R. Padova, J.

App. 50
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
CIVIL ACTION
NO. 15-5977
[Filed July 5, 2018]
___________________________
RAO MANDALAPU, M.D. )
)
v.
)
)
TEMPLE UNIVERSITY
)
HOSPITAL, INC., et al.
)
__________________________ )
ORDER
AND NOW, this 5th day of July, 2018, upon
consideration of Defendants’ Motion for Summary
Judgment (Docket No. 72), all documents filed in
connection therewith, and the parties’ arguments at
the Hearing held on June 13, 2018, and for the reasons
stated in the accompanying Memorandum, IT IS
HEREBY ORDERED as follows:
1. Defendants’ Motion is GRANTED.
2. JUDGMENT IS ENTERED in favor of
Defendants and against Plaintiff.
3. The Clerk of Court shall mark this case
CLOSED.

App. 51
BY THE COURT:
/s/ John R. Padova, J.
______________________
John R. Padova, J.

App. 52

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2720
(E.D. Pa. No. 2:15-cv-05977)
[Filed January 2, 2020]
_____________________________________________
RAO S. MANDALAPU, Medical Doctor,
)
Appellant
)
)
v.
)
)
TEMPLE UNIVERSITY HOSPITAL; DOCTOR )
JACK H. MYDLO; DOCTOR ROBERT GUY
)
UZZO; DOCTOR RICHARD E. GREENBURG; )
DOCTOR DAVID Y.T. CHEN; DOCTOR
)
ALEXANDER KUTIKOV; DOCTOR ROBERT )
S. CHARLES; DOCTOR STEVEN J.
)
HIRSHBERG; DOCTOR YAN F. SHIBUTANI )
____________________________________________ )
SUR PETITION FOR REHEARING

App. 53
Present: SMITH, Chief Judge, AMBRO, CHAGARES,
JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and NYGAARD,*
Circuit Judges
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Richard L. Nygaard
Circuit Judge
Dated: January 2, 2020
Lmr/cc: Matthew Stiegler
Nitin Sud
Michael J. Fortunato
Cynthia B. Morgan
Jason K. Roberts
Rao S. Mandalapu

*

Pursuant to Third Circuit I.O.P. 9.5.3, Judge Richard L.
Nygaard’s vote is limited to panel rehearing.

